Report No. D-2008-042          January 31, 2008




    Reporting of Contract Financing Interim
   Payments on the DoD Financial Statements
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

CLRS      Contract Load Reconciliation System
DFAS      Defense Finance and Accounting Service
FAR       Federal Acquisition Regulation
GAFS-R    General Accounting and Reporting System-Rehost
MILDEPs   Military Departments
MOCAS     Mechanization of Contract Administration Services
OSD(C)/CFOOffice of the Under Secretary of Defense (Comptroller)/Chief Financial
            Officer
PP&E      Property, Plant, and Equipment
RDT&E     Research, Development, Test and Evaluation
SFFAS     Statement of Federal Financial Accounting Standard
SOMARDS Standard Operation and Maintenance Army Research and Development
            System
STARS-FL Standard Accounting and Reporting System Field Level
STARS-HCM Standard Accounting and Reporting System Headquarters Command
            Module
WIP       Work-in-Process
                              INSPECTOR GENERAL
                            DEPARTMENT OF DEFENSE
                             400 ARMY NAVY DRIVE
                        ARLINGTON, VIRGINIA 22202--4704




                                                                           January 31, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
               (COMPTROLLER)/CHlEF FlNANClAL OFFICER

SUBJECT: Report on Reporting of Contract Financing Interim Payments on the DoD
         Financial Statements (Report No, D-2008-042)


      Weare providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Under Secretary of Defense (Comptroller)/ChiefFinancial Officer's comments were
not responsive, We request additional comments on Recommendations 1,2,3, and 4 by
March 2, 2008,

        We request that management provide comments that conform to the requirements
of DoD Directive 7650.3. If possible, please send management comments in electronic
format (Adobe Acrobat file only) to AUDcolu@dodig.mil. Copies of the management
comments must contain the actual signature ofthe authorizing official. We cannot accept
the / Signed / symbol in place ofthe actual signature. If you arrange to send classified
comments electronically, they must be sent over the SECRET Internet Protocol Router
Network (SIPRNET).

         We appreciate the courtesies extended to the staff. Questions should be directed
to James L. Kornides at (614) 751-1400 ext. 211 or Mr. Mark Starinskyat (614)
751-1400 ext. 231. See Appendix D for the report distribution. The team members are
listed in the inside back cover.




                                      f~ ~.!J1~
                                        Patricia A. Marsh, CPA
                                Assistant Inspector General and Director
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-042                                                   January 31, 2008
   (Project No. D2007-D000FJ-0058.000)

             Reporting of Contract Financing Interim Payments
                     on the DoD Financial Statements

                                  Executive Summary

Who Should Read This Report and Why? DoD personnel involved with preparing the
DoD financial statements should read this report. It discusses the current process for
recording and accounting for contract financing interim payments.

Background. The Federal Acquisition Regulation defines contract financing payments
as payments to contractors prior to acceptance of supplies or services. The Federal
Acquisition Regulation allows contractors to submit payment requests for contract
financing interim payments up to twice per month. This report focuses on the accounting
and presentation of interim payments on cost reimbursement contracts for non-services,
hereafter referred to as contract financing interim payments. The Military Departments
use contract financing interim payments to finance the research, development, and
acquisition of DoD weapon system items such as missiles, aircraft, and ships. The
Defense Finance and Accounting Service Columbus provided data that show that the
contract service system disbursed $82.2 billion of contract financing interim payments
from FY 2004 through FY 2006.

Results. Our judgmental sample of $33.16 billion of contract financing interim
payments showed that DoD did not report $10.41 billion of the payments correctly as
Property, Plant, and Equipment Construction Work-in-Process. It did report
$20.61 billion correctly as expenses. The remaining $2.14 billion should have been
reported as Property, Plant, and Equipment and was being reviewed as part of a DoD
Office of Inspector General Military Equipment audit. Also, DoD did not present any of
the $33.16 billion of contract financing interim payments in the Other Assets on the
Balance Sheet as it claimed in the footnotes to the financial statements. As a result, DoD
understated its Property, Plant, and Equipment Construction Work-in-Process by about
$10.41 billion and overstated its expenses by a corresponding amount. There is also a
likelihood that expenses will be understated in the period in which the final asset is
delivered. In addition, DoD and the Military Departments materially misrepresented the
Other Assets Balance Sheet account. See the Finding section of the report for the
detailed recommendations. The internal controls were not adequate. We identified a
material internal control weakness in the reporting of contract financing interim
payments.

Management Comments and Audit Response. The Deputy Chief Financial Officer
nonconcurred that the quarterly financial statement note disclosure checklist and the
DoD Regulation 7000.14-R, “DoD Financial Management Regulation,” policy for
recording and reporting contract financing interim payments required revision. He also
disagreed that contract financing interim payments met the definition of Property, Plant,
and Equipment but stated that they do represent assets. He agreed to revise
DoD Regulation 7000.14-R so that it included consistent policy for capitalizing
Research, Development, Test, and Evaluation costs.

We disagree that current policy does not require revision. Current accounting policy for
contract financing interim payments resulted in a misclassification of assets and
expenses, a material understatement of the Construction Work-in-Process balance, and
material misrepresentations in Note 1R, which could distort future financial information.
We request that the Deputy Chief Financial Officer provide comments on the final report
by March 2, 2008. See the Finding section of the report for a discussion of management
comments and the Management Comments section of the report for the complete text of
the comments.




                                            ii
Table of Contents

Executive Summary                                                       i

Background                                                              1

Objectives                                                              1

Review of Internal Controls                                             2

Finding
     DoD Reporting of Contract Financing Interim Payments              3


Appendixes
     A. Scope and Methodology                                          13
          Prior Coverage                                               14
     B. Sample Contracts                                               15
     C. Presenting Other Types of Contract Financing Payments on the
          Balance Sheet                                                16
     D. Report Distribution                                            17

Management Comments
     Under Secretary of Defense Comments                               19
Background
    The Federal Acquisition Regulation (FAR) defines contract financing payments
    as payments to contractors prior to acceptance of supplies or services. In some
    instances, the FAR considers interim payments to be contract financing. The
    FAR categorizes interim payments on cost reimbursement contracts for non-
    services as contract financing payments and categorizes interim payments on cost
    reimbursement contracts for services as standard invoices. The FAR allows
    contractors to submit payment requests for contract financing interim payments
    up to twice per month. This report focuses on the accounting and presentation of
    interim payments on cost reimbursement contracts for non-services, hereafter
    referred to as contract financing interim payments.

    The FAR also considers progress payments based on cost, performance-based
    payments, and commercial financing interim payments to be contract financing.
    The DoD Office of Inspector General discussed the financial statement
    presentation of these types of contract financing payments in a prior audit report.
    For information on the results of that audit, see Appendix C.

    The Military Departments use contract financing interim payments to finance the
    research, development, and acquisition of DoD weapon system items such as
    missiles, aircraft, and ships.

    Scope of Interim Payments. The Defense Contract Management Agency
    generally administered and approved contract financing interim payments on DoD
    contracts, and the Defense Finance and Accounting Service (DFAS) was
    responsible for payment. The DFAS Columbus Center disbursed $175.5 billion
    on 1.3 million interim payments transactions to Defense contractors during
    FY 2004 through FY 2006. Based on DFAS data, 371,124 transactions totaling
    $82.2 billion were contract financing interim payments.

    FY 2006 Performance and Accountability Report Information. The DoD
    Performance and Accountability Report for FY 2006 contained information that
    indicated that DoD considered its contract financing interim payments to be Other
    Assets as long as DoD did not report the payments elsewhere on the Balance
    Sheet. As of September 30, 2006, the Military Departments reported $24.6
    billion in outstanding contract financing in the Other Assets section of the
    Balance Sheet.


Objectives
    Our audit objective was to assess whether the Department of Defense is
    accurately recording and accounting for interim payments on cost reimbursement
    contracts (other than service contracts) in the DoD financial statements. See
    Appendix A for a discussion of the scope and methodology and for prior coverage
    related to the objectives.



                                         1
Review of Internal Controls
     We identified material internal control weaknesses for DoD as defined by DoD
     Instruction 5010.40, “Manager’s Internal Control (MIC) Program Procedures,”
     January 4, 2006. DoD did not have adequate internal controls for recording and
     presenting contract financing interim payments. Implementing the
     recommendations will improve DoD controls for recording and presenting
     contract financing interim payments in the DoD financial statements. A copy of
     the report will be provided to the senior official responsible for internal controls
     in the Office of the Under Secretary of Defense (Comptroller)/Chief Financial
     Officer (OSD[C]/CFO).




                                           2
           DoD Reporting of Contract Financing
           Interim Payments
           DoD did not properly report $10.41 billion of the $33.16 billion sample
           payments as Property, Plant, and Equipment (PP&E) Construction Work-
           in-Process (WIP). DoD reported $20.61 billion correctly as expenses. We
           did not review the remaining $2.14 billion for compliance with Federal
           Accounting Standards. Also, DoD did not present any of the
           $33.16 billion of contract financing interim payments in the Other Assets
           account on the Balance Sheet as it claimed in the footnotes to the financial
           statements. This occurred because the OSD(C)/CFO issued inadequate
           policy for recording and presenting these financing payments. As a result,
           DoD understated its PP&E Construction WIP information by about
           $10.41 billion and overstated its expenses by a corresponding amount.
           There is also the likelihood that expenses will be understated in the period
           in which the final asset is delivered. Additionally, DoD and the Military
           Departments (MILDEPs) materially misrepresented the Other Assets
           Balance Sheet account.


Reporting Interim Payments
    DoD did not report its contract financing interim payments in accordance with
    Federal accounting policy. Specifically, we identified $10.41 billion of contract
    financing interim payments from our audit sample that DFAS and the MILDEPs
    should have recorded in Construction WIP asset accounts. Additionally, DFAS
    and the MILDEPs inappropriately classified the payments as expenses.

    Audit Sample. DFAS Columbus provided a database of interim payments that it
    disbursed through the Mechanization of Contract Administration Services
    (MOCAS) system from October 1, 2003, through September 30, 2006. To
    perform our tests, we selected a judgmental sample of 29 contracts that had a high
    dollar value of contract financing interim payments. Most of the sample contracts
    that we selected were for the development or purchase of major DoD weapons
    programs including the Trident II D-5 Fleet Ballistic Missile, the F-35 Joint Strike
    Fighter, and the Littoral Combat Ship.

    Recognizing Assets Purchased with Interim Payments. For 15 of the
    29 sample contracts, DoD did not properly report the contract financing interim
    payments, totaling $10.41 billion, in a Construction WIP account on the Balance
    Sheet. These disbursements met the requirements for capitalization (which means
    to record as an asset on the Balance Sheet) as required by Statement of Federal
    Financial Accounting Standards (SFFAS) No. 6 because they were used to
    purchase PP&E end items that had not yet been delivered.

    SFFAS No. 6 states that all General PP&E should be recorded at cost. Cost
    includes all costs incurred to bring the PP&E to a form and location suitable for
    its intended use. According to SFFAS No. 6, cost may also include engineering,
    architectural, and any other outside services for designs, plans, specification, and
                                          3
 survey. SFFAS No. 6 further states that in the case of constructed PP&E, the
 PP&E should be recorded as Construction Work-in-Process until it is placed in
 service, at which time the balance should be transferred to General PP&E. Based
 on these criteria, DoD should have classified the $10.41 billion of contract
 financing interim payments as Construction WIP. Additionally, the Statement of
 Federal Financial Accounting Concepts No. 1, “Objectives of Federal Financial
 Reporting,” September 2, 1993, states that transactions pertaining to the future are
 recognized on the Balance Sheet as assets and liabilities. Because DoD will use
 the assets it was purchasing in the future, DoD should have reported these
 disbursements on the Balance Sheet as a Construction WIP asset.

 The 15 sample contracts were related to Military equipment purchases, not real
 property. DoD did not report any Military equipment Construction WIP balances
 for the contract financing interim payments in our sample. In Footnote 10 of the
 FY 2006 Performance and Accountability Report, DoD and the MILDEPs
 reported nine subaccounts for the General PP&E account. DoD also reported
 $12.8 billion in Construction-in-Progress for the MILDEPs for real property
 construction

 Table 1 shows the sample contracts and associated disbursement amounts that
 DoD should have reported in the Construction WIP account but did not. The
 purchases were for property and equipment and included software and major end
 items that were under construction.

     Table 1. Sample Contracts that Included a Construction WIP Balance
                                 (in millions)

Sample                                                                              Disbursement
Number      Major End Item Acquisition                                                   Amount
2           Trident II                                                                    $207.1
3           Trident II                                                                     134.6
4           Trident II                                                                      53.6
9           RIM-161 SM-3                                                                   530.5
13          C-5 RERP                                                                       685.5
14          Software for Aegis Ballistic Missile Defense                                   550.3
16          Multi-Platform Radar Technology Insertion Program                              597.8
17          C-130 AMP                                                                      584.3
19          Littoral Combat Ship                                                           327.7
21          Excalibur Precision Extended Range Artillery
            Projectile                                                                       260.4
22          F-135 Propulsion System and Engine Interchangeable                             2,450.2
23          Advanced Extremely High Frequency                                              1,990.3
26          Mobile User Objective System                                                     671.3
27          Presidential Helicopter Replacement                                              598.8
29          DD(X) Design                                                                     765.8

Total                                                                                   $10,408.2*

* The difference between the total and the $10.41 billion discussed in the body of the report is the
result of rounding.



                                              4
    Expenses. Instead of reporting the $10.41 billion of contract financing interim
    payments as PP&E Construction WIP, DoD reported them as an expense on the
    Statement of Net Cost.

    SFFAS No. 1, “Accounting for Selected Assets and Liabilities,” March 30, 1993,
    states that an expense is an outflow of assets during a period in which the benefits
    from which do not extend beyond the present operating period. In the case of
    contract financing interim payments that are not expenses, the benefits do extend
    beyond the current accounting period. Specifically, the benefits obtained from
    these disbursements will extend beyond the present period because DoD was
    purchasing Military equipment that it will report on the Balance Sheet in future
    periods. Therefore, these disbursements did not meet the definition of an expense
    and should not have been included in the respective FYs Statement of Net Cost.

    Table 2 shows the breakout of the 3 years of disbursements that DoD posted to an
    expense account. DoD should have posted them to an asset Construction WIP
    account.

              Table 2. Sample Amount Expensed by Fiscal Year
                               (in billions)

              Fiscal Year                            Disbursement Amount
              2004                                                 $2.50
              2005                                                  3.11
              2006                                                  4.79

              Total                                                    $10.40*

              * The difference between the total and the $10.41 billion
              discussed in the body of the report is the result of rounding.




Presenting Interim Payments
    DoD did not accurately disclose how it presented interim payments on the
    financial statements. Specifically, DoD and the MILDEPs stated in Note 1R
    Other Assets of their FY 2006 Financial Statements that Other Assets includes
    contract financing payments that they did not report elsewhere on the
    Department’s Balance Sheet. The financial statements also indicated that contract
    financing payments may include interim payments under certain cost-
    reimbursement contracts.

    This disclosure was not accurate. DoD reported contract financing interim
    payments as expenses on the Statement of Net Cost and, in general, did not report
    them on the Balance Sheet at all. For our $33.16 billion sample interim
    payments, DoD reported the majority of the payments as expenses, with the
    possible exception of $2.14 billion, which might be part of the Military
    Equipment balance. We did not perform testing to verify if the $2.14 billion that
    should have been reported as Property, Plant, and Equipment was properly

                                               5
    reported as Property, Plant, and Equipment for Military Equipment because
    another DoD Office of Inspector General audit team was in the process of
    reviewing the assertion package for Military Equipment Valuation. DoD and the
    MILDEPs did not report any of the $33.2 billion as contract financing in the
    Other Assets account on the Balance Sheet as they claimed.


Adequacy of DoD Policy
    This misclassification and inaccurate presentation of contract financing interim
    payments occurred because the OSD(C)/CFO did not provide adequate guidance
    for recording and presenting contract financing interim payments on the financial
    statements. We reported similar results in a prior audit on the presentation of
    progress payments, performance based payments, and commercial financing
    interim payments. See Appendix C for more information on the prior contract
    financing audit. In addition, the OSD(C)/CFO did not have adequate and
    consistent policy on when costs should begin to be capitalized, especially in
    relation to research and development costs.

    DoD Contract Financing Interim Payment Guidance. The OSD(C)/CFO
    provided improper guidance on how contract financing interim payments should
    be recorded. Beginning in FY 2006, the OSD(C)/CFO provided interim guidance
    to the MILDEPs to report and present contract financing interim payments in the
    Other Assets balance as contract financing payments.

    This interim guidance was not in accordance with Federal Accounting Standards.
    Based on Federal Accounting Standards, DoD should have:

       •   expensed $20.61 billion of the $33.16 billion sample,

       •   reported $2.14 billion as Military Equipment, and

       •   reported $10.41 billion under the PP&E account as Construction WIP.

    To report and present contract financing interim payments accurately on the
    financial statements, DoD must rescind the interim guidance that requires
    reporting all contract financing interim payments as Other Assets.

    DoD Construction WIP Guidance. In addition to the interim guidance, the
    OSD(C)/CFO provided conflicting and improper guidance on reporting
    Construction WIP amounts for Military Equipment PP&E in DoD Regulation
    7000.14-R, “DoD Financial Management Regulation,” volume 4, chapter 6,
    “Property, Plant and Equipment,” July 2006.

    Specifically, DoD Regulation 7000.14-R volume 4, chapter 6, section 060106 G,
    states that entities can accumulate engineering and design costs in the
    Construction-in-Progress account. Many of our sample contract financing interim
    payments are engineering and design costs and, therefore, could be reported in the
    Construction-in-Progress account. However, in DoD Regulation 7000.14-R
    volume 4, chapter 6, section 060202 B, the DoD Comptroller states that DoD

                                        6
     should use the Construction-in-Progress account (Account 1720) to accumulate
     the costs of real property construction projects. None of our sample contracts
     were for the construction real property. Therefore, the DoD Regulation 7000.14-
     R guidance did not specifically require or allow the posting of contract financing
     interim payments to the Construction-in-Progress account.

     To resolve this issue, the OSD(C)/CFO needs to either allow Military Equipment
     Construction WIP to be reported in the Construction-in-Progress account or create
     a new Construction WIP account for Military ,Equipment.

     DoD Research and Development Cost Guidance. Of the 29 sample contracts,
     12 included Military equipment Construction WIP items funded through
     Research, Development, Test, and Evaluation (RDT&E) appropriations. Despite
     the widespread use of these appropriations for weapons system design and
     development, the OSD(C)/CFO did not provide the reporting entities specific and
     consistent guidance to determine whether they should capitalize or expense
     contract financing interim payments made with RDT&E funds. DoD reporting
     entities needed better guidance to report their Military Equipment Construction
     WIP balances accurately.

     The DoD Regulation 7000.14-R guidance for reporting research and development
     costs was inconsistent and unclear. Specifically, DoD Regulation 7000.14-R
     volume 4, chapter 17, “Expenses and Miscellaneous Items,” section 170202(A),
     June 2000, states that expenses incurred for research and development must be
     recorded and reported as an expense in the period incurred. However, DoD
     Regulation 7000.14-R volume 4, chapter 6, “Property, Plant, and Equipment,”
     section 060201(B), July 2006, states that the recorded cost or value must include
     all amounts paid to bring the property to its form and location suitable for its
     intended use. Examples of these costs include engineering, architectural, and
     other outside services for designs, plans, specification, and survey. DoD
     Regulation 7000.14-R further states in section 060103(A)(8) that General PP&E
     should exclude items that the agency should expense as RDT&E costs unless they
     are associated with the development of an end item that is produced for
     operational use. However, DoD Regulation 7000.14-R does not provide
     additional guidance on how to determine whether the research and development is
     related to a functional end item.

     Because of the lack of proper guidance for recording and presenting interim
     payments, it was understandable how DFAS and the MILDEPs continued to
     report all contract financing interim payments as expenses unless the
     OSD(C)/CFO specifically stated that the payments should be reported as Military
     Equipment.


Effect of Misclassification
     Because of the misclassification, DoD and the MILDEPs materially understated
     their FY 2006 PP&E Construction WIP account balance by at least $10.41 billion.
     This understatement represented 81 percent of the reported Construction-in-
     Progress balance for the three services.

                                          7
Table 3 shows the reported balances and percent not reported in each MILDEP.

                         Table 3. FY 2006 Balances
                                 (in billions)

                                                     PP&E
                            PP&E               Construction
                     Construction-                WIP Not           Percent Not
  Service              in-Progress                Reported            Reported
  Army                        $7.1                     $0.3                 4.2
  Navy                         2.4                      5.1               212.5
  Air Force                    3.3                      5.0               151.5

  Total                        $12.8                 $10.4*                  81.3

  * The difference between the total and the $10.41 billion discussed in the body
  of the report is the result of rounding.


Because DoD also overstated expenses by at least $2.50 to $4.79 billion for
FYs 2004 through 2006 (see Table 3), DoD will understate expenses for that
accounting period when it reports the cost of the delivered assets. Specifically,
DoD accountants have been debiting the Military Equipment balance for the
entire purchase amount and making a corresponding credit to expenses, even
though it recorded the disbursements as expenses in prior periods.

DoD materially misrepresented the contract financing balance in the Other Assets
account when it disclosed that the contract financing interim payments were
included in the balance. DoD’s contention that it included all of contract
financing interim payments in the Other Assets account is not accurate. If the
sample contact financing interim payments were included in the reported
Outstanding Contract Financing balance, the balance would be increased by at
least $33.16 billion. We do not agree with reporting all contract financing
payments in the Other Assets account. Our prior audit of the presentation of
progress payments, performance based payments, and commercial financing
interim payments showed that these payments were predominately financing
Military Equipment purchases. Appendix C contains more information about the
audit results.

Table 4 shows the Outstanding Contract Financing balance and the total value of
the contract financing interim payments disbursements for FY 2004 through
FY 2006.




                                           8
                     Table 4. FY 2006 Outstanding Contract Financing
                                        Balances
                                       (in billions)

                                                             Sample Contract
                                                            Financing Interim
                 Service          Report Balance                    Payments
                 Army                       $5.3                        $6.68
                 Navy                        8.2                        13.75
                 Air Force                  11.1                        12.73

                 Total                      $24.6                       $33.16


    The misstatements to PP&E Construction WIP and expenses and the
    misrepresentation of the Outstanding Contract Financing balance identified in this
    report do not necessarily represent the entire contract financing interim payment-
    related misstatements that existed. The judgmental sample included only
    40.3 percent of the entire contract financing interim payments universe provided
    by DFAS Columbus. Therefore, additional misstatements of these balances may
    have occurred. Without corrective actions, DoD will continue to materially
    misstate and misrepresent contract financing interim payments on the DoD
    financial statements.


Recommendations, Management Comments, and Audit
  Response
    We recommend that the Under Secretary of Defense (Comptroller)/Chief
    Financial Officer:

            1. Rescind the interim guidance checklist that directed its reporting
    entities to report contract financing interim payments in the Outstanding
    Contract Financing balance.

    Management Comments. The Deputy Chief Financial Officer nonconcurred
    and stated that the quarterly financial statement note disclosure checklist
    accurately reflects DoD policy for reporting contract financing interim payments
    in the Department’s consolidated Balance Sheet.

    Audit Response. The Deputy Chief Financial Officer comments are not
    responsive. The quarterly financial statement note disclosure checklist does not
    properly address the relevant Federal accounting requirements for reporting
    contract financing interim payments on the DoD Balance Sheet and, as a result,
    assets and expenses were not accurately reported. Specifically, the quarterly
    guidance simply requires that contract financing payments be reported as Other
    Assets. However, the guidance does not address how the Military Departments
    and DFAS should identify contract financing interim payments and whether they
                                        9
must be reported on the Balance Sheet or expensed. The quarterly financial
statement note disclosure checklist did not ensure that any contract financing
interim payments were reported on the Balance Sheet. DFAS did not include any
of them in the Other Asset account. Additionally, the quarterly policy does not
include guidance for deciding whether contract financing interim payments relate
to an asset that should be capitalized or relate to an expense item. These
significant gaps in the quarterly policy resulted in material departures from
generally accepted accounting principles and material misstatements in the
Construction WIP account and the footnotes to the financial statements.
Specifically, DoD reported about $10.41 billion in assets and disclosed that all
contract financing payments were included in the Outstanding Contract Financing
balance when they were not. We request that the Deputy Chief Financial Officer
reconsider his position and provide additional comments.

      2. Revise DoD Regulation 7000.15-R, “DoD Financial Management
Regulation,” to include guidance to record contract financing interim
payments as Construction Work-in-Process or expenses.

Management Comments. The Deputy Chief Financial Officer nonconcurred
and stated that contract financing interim payments do not meet the SFFAS
definition of PP&E. He stated that contract financing payments are cash
disbursements made to a contractor to finance the performance under the contract
prior to acceptance of goods or services. He also stated that reporting cash
disbursements as PP&E on the DoD Balance Sheet would mislead readers and
reduce the usefulness and clarity of the information reported. The Deputy Chief
Financial Officer further stated that DoD agrees that contract financing payments
are assets that have a probable economic benefit that can be obtained or
controlled by the entity. He stated that contract financing payments do not fall
within the standard definition of general ledger accounts. Therefore, they are
classified under the account titled “Other Assets.”

Audit Response. The Deputy Chief Financial Officer comments are not
responsive. The assets financed by the contract financing interim payments were
Construction WIP, PP&E, or expenses. The assets that were funded by the
contract financing payments meet the SFFAS requirements for Construction WIP
and PP&E. Pages 3 and 4 of this report discuss the SFFAS requirements for
PP&E and Construction WIP. There is a distinction between the financial
statement presentation of the asset that DoD has gained future use of and the
mechanism used to acquire the asset (the contract financing interim payment).
The distinction is key in determining how to present the information on the DoD
financial statements. The $10.41 billion of the $33.16 billion contract financing
payments that we reviewed were payments for assets that will be major weapon
system programs that are currently being built. To report these $10.41 billion of
assets anywhere except Construction WIP would distort the DoD Balance Sheet.

We disagree that all contract financing payments should be considered assets.
Our audit results clearly show that this is not the case. Specifically,
$20.61 billion of the $33.16 billion in contract financing interim payments that we
reviewed were appropriately recorded as expenses. DoD needs additional policy
that DFAS and the Military Departments can reference and use to determine


                                    10
whether contract financing interim payments represent an asset purchase or an
expense.

Additionally, the Deputy Chief Financial Officer did not comment on revising the
DoD Regulation 7000.14-R so that it addressed circumstances in which contract
financing payments should be recorded as expenses. We request that the Deputy
Chief Financial Officer reconsider his position and provide additional comments.

       3. Expand DoD Regulation 7000.14-R, “DoD Financial Management
Regulation,” to include guidance on when Research, Development, Test, and
Evaluation funds should be included in the capitalized cost of a functional
end item and how to record the disbursements on the financial statements.

Management Comments. The Deputy Chief Financial Officer partially
concurred and stated that DoD Regulation 7000.15-R volume 4, chapter 6,
subparagraph 06103.A.8.e. accurately reflects the DoD accounting practice and
policy of capitalizing RDT&E items associated with the development of an end
item that is produced for operational use. He agreed that DoD Regulation
7000.14-R volume 4, chapter 17, paragraph 170202 requires clarification. He
agreed to revise subparagraph 170202.A. to state that expenses incurred for
RDT&E should be recorded and reported as an expense unless they are associated
with the development of an end item that is produced for operational use and
should be capitalized.

Audit Response. The Deputy Chief Financial Officer comments are partially
responsive. We agree with the wording of the revision to paragraph 170202.A.
This revision will be consistent with the guidance in DoD Regulation 7000.14-R
volume 4, chapter 6, subparagraph 060103.A.8. However, the comments did not
include specific guidance that the Military Departments can use to determine
whether the contract financing payment is associated with an end item for
operational use. More detailed guidance would improve the likelihood that DFAS
or the Military Departments make an accurate determination. Additionally, the
Deputy Chief Financial Officer comments did not address the inconsistency
between DoD Regulation 7000.14-R volume 4, chapter 6, paragraph 060106.G.
and volume 4, chapter 6, paragraph 060202.B. Paragraph 060106.G. states that
entities can accumulate engineering and design costs in the Construction WIP
account. However, paragraph 060202.B. indicates that the Construction WIP
account should be used for real property construction projects and does not
specify other types of projects, such as PP&E acquisitions. A revision of
paragraph 060202.B. that clarifies that the Construction WIP account could also
include weapon system PP&E acquisition would remove the inconsistency in the
two DoD Regulation 7000.14-R sections. We request that the Deputy Chief
Financial Officer reconsider his position and provide additional comments.

       4. Monitor whether contract financing interim payments are being
reported and presented in accordance with the new DoD Regulation
7000.14-R “DoD Financial Management Regulation” requirements.

Management Comments. The Deputy Chief Financial Officer nonconcurred
and stated that he did not agree that any changes to DoD Regulation 7000.14-R


                                   11
related to the reporting of contract financing interim payments were required.
Therefore, no monitoring is needed.

Audit Response. The Deputy Chief Financial Officer comments are not
responsive. Without changes to DoD Regulation 7000.14-R reporting policy for
contract financing interim payments, users of the existing guidance will continue
to make material departures from generally accepted accounting principles that
result in misclassification of assets and expenses. The misclassification of
contract financing interim payments is significant. Contract financing interim
payments represented $10.41 billion of assets purchased from FY 2004 through
2006 and were material to the Construction WIP account. Additionally, without
changes to the disclosure in Note 1R, DoD will continue to misrepresent the total
amount of contract financing payments and the presentation of contract financing
interim payments. We request that the Deputy Financial Officer reconsider his
position and provide additional comments.




                                    12
Appendix A. Scope and Methodology
   We conducted this performance audit from October 2006 through July 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We obtained all recorded contract financing interim payments made by the DFAS
   Columbus MOCAS system from October 2003 through September 2006. After
   receiving this universe of contract financing interim payments, we judgmentally
   selected 29 contracts to review based on dollar values and other factors. We
   obtained access to the Electronic Document Access system at DFAS Columbus to
   review scanned contracts and electronically-generated entitlement information to
   determine the type of asset that each interim payment was financing. For
   contracts in which the contract information in Electronic Document Access was
   insufficient, we contacted the procurement contracting officer to inquire about the
   asset that was purchased.

   We then reviewed the Federal Accounting Standards and DoD guidance to
   determine how the payments for the assets or services that DoD purchased should
   be recorded on the financial statements. Specifically, we determined, based on
   SFFAS No. 6 and SFFAS No. 23, that if the contract would result in the purchase
   of a functional end item, DoD should capitalize all costs in either the Military
   Equipment or Construction WIP balance. If the contract was for the purchase of a
   prototype or plan, DoD should expense all costs. However, if the contract was for
   the purchase of a prototype or plan and a contract for a final asset was initiated,
   DoD should capitalize all costs for the original contract from the date of the new
   contract. For contracts that were for services, DoD should have expense all costs.

   We obtained accounting data for the Army from the Contract Load Reconciliation
   System (CLRS) and the Standard Operation and Maintenance Army Research and
   Development System (SOMARDS). We obtained accounting data for the Navy
   from the Standard Accounting and Reporting System (STARS) Headquarters
   Command Module (HCM), STARS Field Level (FL), and Sigma systems. We
   obtained accounting data for the Air Force from the General Accounting and
   Finance System-Rehost (GAFS-R) system. We then assessed the systems’
   compliance with the posting logic for each system and determined whether the
   data provided could be reconciled with the data reported by the Treasury.

   Our scope was limited in that we did not perform completeness testing on the
   universe of transactions received from the MOCAS system. We did not review
   the MOCAS data to ensure that the appropriate “kind” of contract was used by
   DFAS. We did not perform testing to verify the amounts reported for Military
   Equipment because another Department of Defense Office of Inspector General
   audit team is in the process of reviewing the assertion package for Military
   Equipment Valuation. We reviewed only the overall posting logic for each of the

                                       13
    Services. We did not review the actual posting for each of our individual sample
    disbursements.

    Use of Computer-Processed Data. We relied on computer-processed data from
    the MOCAS system to identify contract financing interim payments disbursed
    from October 1, 2003, through September 30, 2006. During a prior audit, we
    determined that the transactions DFAS Columbus entered into MOCAS were
    generally accurate, based on the scanned invoices. Therefore, we did not perform
    a reliability assessment of the MOCAS data. We also determined that the data in
    MOCAS were not altered and existed in the system. Based on these assessments,
    the MOCAS data were reliable.

    We also relied on computer-processed data from the CLRS, GAFS-R,
    SOMARDS, Sigma, STARS-FL, and STARS-HCM accounting systems. We did
    not verify the entire posting logic for each system. However, we did verify the
    accuracy of the application of the posting logic for each of our sample
    disbursements. Based on our assessments, the data from the accounting systems
    will not negatively affect the results of this audit.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the DoD Financial Management high-risk area.


Prior Coverage
    During the last 5 years, the Department of Defense Inspector General (DoD IG)
    has issued three reports discussing the presentation of contract financing
    payments. Unrestricted DoD IG reports can be accessed at
    http://www.dodig.mil/audit/reports.

DoD IG
    Report No. D-2006-050, “Accuracy of Navy Contract Financing Amounts,”
    February 13, 2006

    Report No. D-2006-025, “Report on Accuracy of Air Force Contract Financing
    Amounts,” November 14, 2005

    Report No. D-2005-062, “Report on Recording and Accounting for DoD Contract
    Financing Payments,” May 10, 2005




                                        14
Appendix B. Sample Contracts
        We reviewed 29 contracts. The table shows the contracts reviewed, the item
        purchased, and the total dollar value of the contract financing interim payments.

           Sample Contracts with Contract Financing Interim Payments
                                  (in millions)
                                                                       Value of Contract
                                                                       Financing Interim
Contract Number             Program/Item                             Payments Reviewed
DAAH2300CA001               RAH-66 Comanche                                       $764.0
N0003003C0100               Trident II                                             552.5
N0003004C0100               Trident II                                             472.1
N0003005C0100               Trident II                                             413.8
N0001902C3002               F035 Joint Strike Fighter                            8,947.4
DAAE0739F001                Unit of Action                                       3,210.9
W56HZV05C0724               Unit of Action                                       2,224.6
N0001903C0057               E-2D Advanced Hawkeye                                1,335.9
N0002403C6111               FIM-161 SM-3                                           954.0
F3365799D00280023           B-2 Radar Modernization Program                        258.9
F3365791C0006               F-22 Raptor                                            820.3
F0470102C0009               Space Based Infrared Systems Low                       614.2
F3365702C2000               C-5 RERP                                               685.5
N0002403C6110               Aegis Ballistic Missile Defense                        550.3
N0002498C5197               ACS Baseline Upgrades                                  605.0
F1962800C0100               MP-RTIP                                                597.8
F3365701C0047               C-130 AMP                                              584.3
N0002403C2311               Littoral Combat Ship                                   327.7
FA880804C0023               TSAT Advanced Wideband System                          289.4
DAAE3098C1032               155MM Unitary Projectile                               260.4
N0001902C3003               F135 Propulsion System and Engine                    2,450.2
F0470102C0002               Advanced Extremely High Frequency                    1,990.3
F2960197C0001               Airborne Laser                                       1,186.9
N0001993C0006               CV and MV-22 Osprey                                    688.5
N0003904C2009               Mobile User Objective System                           671.3
N0001905C0030               Presidential Helicopter Replacement                    598.8
F3460195C0270               Contractor Logistic Support                            120.3
N0002405C5346               DD(X) Design                                           765.8
DAAA0902D00070027           Operational Support                                    213.8

Total                                                                          $33,154.9




                                            15
Appendix C. Presenting Other Types of Contract
             Financing Payments on the Balance
             Sheet
   DoD OIG Report No. D-2005-062, “Report on Recording and Accounting for
   DoD Contract Financing Payments,” May 10, 2005, addressed the presentation of
   certain contract financing payments on the DoD financial statements. Report No.
   D-2005-062 concluded that DoD did not record progress payments, performance-
   based payments, and commercial item financing payments on the Consolidated
   Balance Sheet of the DoD Financial Statements in accordance with Federal
   Accounting Standards. The report stated that DoD inappropriately recorded
   contract financing payments in the Other Assets account when it should have
   recorded the payments in an in-process asset account, such as Construction WIP.

   The OSD(C)/CFO disagreed with the DoD OIG position and stated that DoD
   accounting practices and the DoD Financial Management Regulation policies for
   recording and accounting for contract financing payments are compliant with
   Federal Accounting Standards and accurately reflect the legal and financial status
   of DoD. OSD(C)/CFO further stated that classifying contract financing payments
   under Other Assets, with full disclosure in the footnotes as to their nature,
   provides relevant and reliable information to decision makers and financial
   statement users and is fully compliant with Federal Accounting Standards.

   In response to the audit finding, the Deputy General Counsel (Acquisition and
   Logistics) stated that the title to the property paid for by the progress payment is
   transferred to the Government at the time of the payment. He also stated that the
   audit erroneously appears to equate progress payments with partial acceptance of
   the contracted end item. He added that whether progress payment inventory is
   booked as Work-In-Process or as Other Assets is a matter of accounting policy.

   We disagreed with the comments from the Deputy Chief Financial Officer. When
   we examined the types of assets purchased with contract financing payments, the
   associated documentation showed that the items more appropriately fit the
   category of Construction WIP (for PP&E being manufactured) or Inventory WIP
   (for inventory being acquired). We maintain our position that when DoD makes
   contract financing payments, DoD should present the PP&E and inventory-related
   items as such in the financial statements.

   Despite the audit finding, the OSD(C)/CFO continues to report those types of
   contract financing payments in the Other Assets account.




                                        16
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)

Department of the Navy
Naval Inspector General

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs



                                          17
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      18
Under Secretary of Defense Comments




                     19
20
21
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
James L. Kornides
Mark Starinsky
Lisa S. Sherck
Amber W. White
Kelly E. Prillaman
Ann L. Thompson
